      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




February 8, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicaid Payments for Nonemergency Medical Transportation
              Services Claims Submitted by Providers in New York State (A-02-09-01024)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
nonemergency medical transportation services claims submitted by providers in New York State.
We will issue this report to the New York State Department of Health within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01024.


Attachment
                                                                          Office of Inspector General
      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Audit Services


                                                                          Region II
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
February 13, 2012                                                         New York, NY 10278


Report Number: A-02-09-01024

Nirav R. Shah, M.D., M.P.H.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Shah:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Nonemergency Medical
Transportation Services Claims Submitted by Providers in New York State. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jennifer Webb, Audit Manager, at (212) 264-8875 or through email at
Jennifer.Webb@oig.hhs.gov. Please refer to report number A-02-09-01024 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Nirav R. Shah, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL



         REVIEW OF
   MEDICAID PAYMENTS FOR
  NONEMERGENCY MEDICAL
  TRANSPORTATION SERVICES
    CLAIMS SUBMITTED BY
       PROVIDERS IN
      NEW YORK STATE




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-02-09-01024
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State, the Department of Health (DOH) administers the Medicaid program and
oversees compliance with Federal and State requirements. Within DOH, the Office of Medicaid
Management administers the Medicaid program, including the nonemergency medical
transportation (NEMT) program. Each of the State’s local social services offices is responsible
for authorizing NEMT services, ensuring that the services are necessary to the obtaining of
medical care, and monitoring the NEMT program.

Pursuant to 42 CFR § 431.53, States are required to ensure necessary transportation for Medicaid
beneficiaries to and from providers. Pursuant to State regulations, (1) NEMT services may be
delivered through the use of an ambulance, ambulette, taxicab, or livery service; (2) prior
authorization must be obtained; (3) a medical practitioner’s order justifying the beneficiary’s use
of NEMT services must be documented in the beneficiary’s medical record; and (4) a
transportation provider must notify the New York Department of Motor Vehicles within 10 days
of the date on which an ambulette driver commences employment.

This review excluded NEMT service claims submitted by 196 providers in New York City,
which we audited separately.

OBJECTIVE

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
NEMT services claims submitted by transportation providers in New York State in accordance
with certain Federal and State requirements.

SUMMARY OF FINDINGS

For our audit period (April 1, 2005, through March 31, 2006), DOH claimed Federal Medicaid
reimbursement for some NEMT services submitted by transportation providers in New York
State that did not comply with certain Federal and State requirements. Of the 100 NEMT claims
in our random sample, DOH properly claimed Medicaid reimbursement for 57 claims. However,
for the 43 remaining claims, DOH claimed Medicaid reimbursement for services that were not
allowable or were potentially unallowable. Specifically, 40 claims contained services that did
not comply with certain Federal and State requirements, and for 3 claims, we could not




                                                 i
determine whether services complied with Federal and State regulations. Of the 40 noncompliant
claims, 11 contained more than 1 deficiency:

   •   For 22 claims, the transportation provider could not adequately document NEMT services
       to support the claim.

   •   For 10 claims, the medical practitioner could not provide documentation to support that
       the beneficiary received Medicaid-eligible medical services on the date of transport.

   •   For seven claims, the beneficiary’s medical record did not indicate the condition
       justifying the practitioner’s order for ambulette services.

   •   For seven claims, the request for prior authorization was not supported in DOH’s files,
       the beneficiary’s medical record, or the transportation provider’s files by an order from a
       medical practitioner.

   •   For five claims, the transportation provider did not report the ambulette driver who
       provided the NEMT service to the Department of Motor Vehicles within 10 days of
       commencement of employment.

For three claims, we could not determine compliance with Federal and State Medicaid
reimbursement requirements because we were unable to locate the transportation provider or
medical practitioner.

The claims for unallowable and potentially unallowable services were made because (1) DOH’s
policies and procedures for overseeing the Medicaid program did not adequately ensure that
providers complied with Federal and State requirements for ordering, documenting, and claiming
NEMT services and (2) the New York State social services districts’ quality assurance
mechanism did not adequately ensure that NEMT services were properly provided.

Based on our sample results, we estimate that DOH improperly claimed $13,473,577 in Federal
Medicaid reimbursement for 723,237 NEMT claims during the period April 1, 2005, through
March 31, 2006.

RECOMMENDATIONS

We recommend that DOH:

   •   refund $13,473,577 to the Federal Government;

   •   strengthen its policies and procedures to ensure that providers comply with Federal and
       State requirements for ordering, documenting, and claiming NEMT services; and

   •   require the New York State social services districts to strengthen their quality assurance
       mechanism to ensure that NEMT services are properly provided.



                                                ii
DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DOH partially agreed with our first recommendation
(financial disallowance) and agreed with our remaining recommendations. Specifically, DOH
disagreed with our interpretation of certain State requirements related to prior authorization of
NEMT services and with our findings related to 14 sampled claims. After reviewing DOH’s
comments and conducting additional interviews with medical providers, we revised our findings
and modified our statistical estimates accordingly. DOH’s comments appear in their entirety as
Appendix D.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              New York State’s Nonemergency Medical Transportation Program ..........1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................3
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................5

          UNALLOWABLE CLAIMS ...................................................................................6
              Transportation Claim Not Adequately Documented ...................................6
              No Medicaid-Eligible Medical Services ......................................................6
              Condition Justifying Order for Ambulette Services
                Not Noted in Medical Record ...................................................................6
              No Medical Practitioner’s Order for Transportation Services .....................7
              Driver Not Reported Timely to the Department of Motor Vehicles ............7

          POTENTIALLY UNALLOWABLE CLAIMS ......................................................7

          CAUSES OF UNALLOWABLE AND
           POTENTIALLY UNALLOWABLE CLAIMS ...................................................8

          RECOMMENDATIONS .........................................................................................8

          DEPARTMENT OF HEALTH COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................8
               No Medical Practitioner’s Order for Transportation Services .....................8
               Inadequate Documentation ..........................................................................9
               No Medicaid-Eligible Medical Services ....................................................10
               Condition Justifying Order for Ambulette Services Not
                 Noted in Medical Record ........................................................................10




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

    D: DEPARTMENT OF HEALTH COMMENTS




                               v
                                                 INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New York State, the Department of
Health (DOH) administers the Medicaid program and oversees compliance with Federal and
State requirements. Within DOH, the Office of Medicaid Management administers the Medicaid
program, including the nonemergency medical transportation (NEMT) program.

Federal regulations (42 CFR § 431.53) require States to ensure necessary transportation for
Medicaid beneficiaries to and from providers. 1 Pursuant to 42 CFR § 440.170, transportation
includes expenses for transportation and other related travel expenses (e.g., NEMT) determined
to be necessary by the State Medicaid agency to secure medical examinations and treatment for a
beneficiary. In addition, pursuant to section 1902(a)(27) of the Act, a State plan must require
that providers of services maintain records to fully disclose the extent of services provided to
Medicaid beneficiaries.

New York State’s Nonemergency Medical Transportation Program

New York State’s Medicaid State plan and Title 18 § 505.10 of the New York Compilation of
Codes, Rules, & Regulations (NYCRR) describe DOH’s policies concerning NEMT services for
Medicaid beneficiaries. In addition, DOH issues guidance to its local social services district
offices, 2 transportation providers, and medical practitioners regarding its policies and procedures
for ordering, documenting, and claiming NEMT services. DOH uses the Medicaid Management
Information System (MMIS), a computerized payment and information reporting system, to
process and pay Medicaid claims, including NEMT claims.

Pursuant to State regulations (18 NYCRR § 505.10(a)), payment for NEMT services requires
prior authorization. DOH grants prior authorization when it determines that a specific mode of
transportation is necessary for a beneficiary to obtain medical services (18 NYCRR




1
    States are required to describe their methods for meeting this requirement in their Medicaid State plans.
2
 In New York State, each county is considered its own social services district, except the five counties that make up
New York City, which are considered a single district.


                                                             1
§ 505.10(b)(17)). 3 In addition, the regulations require that the ordering practitioner note in the
beneficiary’s medical record the condition that justifies the practitioner’s ordering ambulette 4 or
nonemergency ambulance services (18 NYCRR § 505.10 (c)(4)).

Pursuant to State regulations (18 NYCRR §§ 505.10(e)(6) and 505.10(b)(21)), transportation
providers must be lawfully authorized to provide transportation services and may use an
ambulance, ambulette, taxicab, van, or livery service to provide NEMT services related to
Medicaid-eligible medical services. Each mode of transportation (i.e., level of service) is
reimbursed at a different rate. In addition, pursuant to section 509-d(4) of Article 19-A of the
New York Vehicle and Traffic Law, a transportation provider must notify the New York
Department of Motor Vehicles within 10 days of the date on which an ambulette driver
commences employment with the transportation provider.

State regulations (18 NYCRR § 504.3) require all providers to prepare and maintain records of
services provided, including all records necessary to disclose the nature and extent of services
provided and all information regarding claims submitted for payment. In addition, the
regulations require providers to submit claims only for services that were actually furnished and
medically necessary or otherwise authorized under the State’s Social Services Law.

Pursuant to section 365-h of the New York Social Services Law, each of the State’s local social
services offices is responsible for authorizing NEMT services and ensuring that the services are
necessary to the obtaining of medical care. In addition, local social services offices are required
to maintain a “quality assurance mechanism” to ensure that NEMT services are provided in
accordance with State regulations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
NEMT services claims submitted by transportation providers in New York State in accordance
with certain Federal and State requirements.




3
  For ambulance services, a request for prior authorization must be supported by the order of a practitioner who is
the beneficiary’s attending physician, physician’s assistant, or nurse practitioner. For ambulette services, a request
for prior authorization must be supported by the order of a practitioner who is the beneficiary’s attending physician,
physician’s assistant, nurse practitioner, dentist, optometrist, podiatrist, or other medical practitioner.
4
 An ambulette is a special-purpose vehicle designed and equipped to carry individuals in wheelchairs or stretchers,
or that has the ability to carry disabled individuals. Ambulette service involves providing the beneficiary with
personal assistance. Pursuant to 18 NYCRR § 505.10(c)(2), ambulette transportation may be ordered if the
beneficiary is wheelchair bound; needs to be transported in a recumbent position; has a disabling condition that
prevents the beneficiary from using a taxi, livery service, bus, or private vehicle; or will be receiving radiation,
dialysis, or chemotherapy resulting in a disabling physical condition after treatment.


                                                          2
Scope

Our review covered 2,277,713 claims for NEMT services, totaling $97,489,723 ($48,750,864
Federal share), submitted by 413 transportation providers in New York State for the period
April 1, 2005, through March 31, 2006. Our audit population did not include claims for NEMT
services submitted by 196 transportation providers in New York City, which we audited
separately. 5

We did not assess the overall internal control structure of DOH or the Medicaid program.
Rather, we limited our review of internal controls to those applicable to the objective of our
audit. In addition, the scope of our audit did not require us to review the medical necessity of the
transportation services.

We conducted fieldwork at DOH’s offices in Albany, New York; the State MMIS fiscal agent in
Rensselaer, New York; and at 65 transportation providers, 91 medical practitioners, and 18 local
social services district offices throughout New York State.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws and regulations;

    •   held discussions with CMS and DOH officials to gain an understanding of the NEMT
        program;

    •   held discussions with New York State social services officials to gain an understanding
        of the districts’ policies and procedures related to their administration of the NEMT
        program;

    •   ran computer programming applications at the MMIS fiscal agent that identified a
        sampling frame of 2,277,713 NEMT services claims, 6 totaling $97,489,723 ($48,750,864
        Federal share), made by 413 transportation providers; 7




5
  Review of Medicaid Payments for Nonemergency Medical Transportation Services Claims Submitted by Providers
in New York City (A-02-08-01017).
6
 Providers can submit an NEMT claim for a one-way trip to/from a Medicaid-covered medical service, a roundtrip,
or a multileg trip. Additionally, providers can submit an NEMT claim for various other add-on services (e.g.,
mileage, drugstore stop/extra stop, attendant, etc.)
7
 We used providers’ correspondence addresses and county codes on the MMIS to identify those located outside of
New York City. The sampling frame did not include NEMT claims submitted by two transportation providers that
were under criminal investigation.


                                                       3
     •   selected a simple random sample of 100 claims 8 from the sampling frame of 2,277,713
         claims and, for each of these 100 claims:

             o interviewed the ordering practitioner and office staff, if available, 9 and reviewed
               the practitioner’s documentation to determine whether the beneficiary’s medical
               record noted the condition that justified the practitioner’s ordering NEMT
               services;

             o interviewed the transportation provider, if available, 10 and reviewed the
               transportation provider’s documentation supporting the claim for NEMT services;

             o reviewed documentation maintained by the medical practitioner to whom the
               beneficiary was transported to determine whether the beneficiary received
               Medicaid-eligible medical services on the date of transport;

             o reviewed documentation maintained by DOH supporting the ordering
               practitioner’s request for prior authorization for NEMT services;

             o reviewed New York Department of Transportation records to determine whether
               the transportation provider was authorized to provide transportation services and
               the vehicle(s) used for the service(s) was inspected; and

             o reviewed New York Department of Motor Vehicles records to determine whether
               the ambulette driver(s) was properly licensed and reported within 10 days of
               commencing employment with the transportation provider; and

     •   estimated the unallowable Federal Medicaid reimbursement in the population of
         2,277,713 NEMT claims.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



8
  Our random sample comprised NEMT services claimed for ambulette (59 claims), taxicab (23 claims), van or
similar method for day treatment center visit (14 claims), nonemergency ambulance (3 claims), and livery (1 claim).
9
  For various reasons (e.g., relocation, out of business), we were able to interview only 91 of the 97 practitioners
related to our sampled claims.
10
  For various reasons (e.g., out of business), we were able to interview only 60 of the 65 transportation providers
related to our sampled claims.


                                                           4
                         FINDINGS AND RECOMMENDATIONS

DOH claimed Federal Medicaid reimbursement for some NEMT services submitted
by transportation providers in New York State that did not comply with certain Federal and State
requirements. Of the 100 NEMT claims in our random sample, DOH properly claimed Medicaid
reimbursement for 57 claims. However, for the 43 remaining claims, DOH claimed Medicaid
reimbursement for services that were not allowable or were potentially unallowable.
Specifically, 40 claims contained services that did not comply with certain Federal and State
requirements, and for 3 claims, we could not determine whether services complied with Federal
and State regulations.

Of the 40 noncompliant claims, 11 contained more than 1 deficiency:

   •   For 22 claims, the transportation provider could not adequately document NEMT services
       to support the claim.

   •   For 10 claims, the medical practitioner could not provide documentation to support that
       the beneficiary received Medicaid-eligible medical services on the date of transport.

   •   For seven claims, the beneficiary’s medical record did not indicate the condition
       justifying the practitioner’s order for ambulette services.

   •   For seven claims, the request for prior authorization was not supported in DOH’s files,
       the beneficiary’s medical record, or the transportation provider’s files by an order from a
       medical practitioner.

   •   For five claims, the transportation provider did not report the ambulette driver who
       provided the NEMT service to the Department of Motor Vehicles within 10 days of
       commencement of employment.

For three claims, we could not determine compliance with Federal and State Medicaid
reimbursement requirements because we were unable to locate the transportation provider or
medical practitioner.

Appendix C contains a summary of deficiencies, if any, identified for each sampled claim.

The claims for unallowable and potentially unallowable services were made because (1) DOH’s
policies and procedures for overseeing the Medicaid program did not adequately ensure that
providers complied with Federal and State requirements for ordering, documenting, and claiming
NEMT services and (2) the New York State social services districts’ quality assurance
mechanism did not adequately ensure that NEMT services were properly provided.

Based on our sample results, we estimate that DOH improperly claimed $13,473,577 in Federal
Medicaid reimbursement for 723,237 NEMT claims during the period April 1, 2005, through
March 31, 2006.



                                                5
UNALLOWABLE CLAIMS

Transportation Claim Not Adequately Documented

Section 1902(a)(27) of the Act requires that a State plan “provide for agreements with every
person or institution providing services under which such person or institution agrees (A) to keep
such records as are necessary to fully disclose the extent of the services provided to individuals
receiving assistance under the State plan, and (B) to furnish the State agency or the Secretary
with such information … as the State agency or the Secretary may from time to time request.”

Pursuant to 18 NYCRR § 505.10(e)(8), if an ambulette is used to provide an NEMT service, the
transportation provider must maintain documentation for the service. Specifically, providers
must document (1) the beneficiary’s name and Medicaid identification number, (2) the
origination of the trip, (3) the destination of the trip, (4) the date and time of service, and (5) the
name of the driver transporting the beneficiary. 11

For 22 of the 100 claims in our sample, transportation providers could not adequately document
NEMT services for which an ambulette was used to transport the beneficiary. Specifically, for
16 sample claims, the transportation provider could not provide documentation related to the
NEMT service, and for 6 other claims, the transportation provider could not document the name
of the driver who transported the beneficiary.

No Medicaid-Eligible Medical Services

Pursuant to 18 NYCRR § 505.10(a), an NEMT service is eligible for Medicaid payment when
the transportation service is essential for the beneficiary to obtain necessary medical care and
services that may be paid for under the Medicaid program.

For 10 of the 100 claims in our sample, the medical practitioner to whom the beneficiary was
transported could not document that the beneficiary received Medicaid-eligible services on the
date of the NEMT service.

Condition Justifying Order for Ambulette Services Not Noted in Medical Record

Pursuant to 18 NYCRR § 505.10(c)(2), ambulette transportation may be ordered if the recipient
needs to be transported in a recumbent position; is wheelchair bound; has a disabling condition
that requires the use of a walker or crutches; has any other disabling condition that requires the
personal assistance provided by an ambulette service; or requires radiation therapy or dialysis
treatment and cannot use a taxicab, livery service, or public transportation. In addition, pursuant
to 18 NYCRR § 505.10(c)(4), the ordering practitioner must note in the beneficiary’s medical
record the condition that justifies the practitioner’s ordering ambulette services.




11
  DOH reiterated these requirements to Medicaid providers in its June 2003 (Volume 18, Number 6) issue of New
York State Medicaid Update, the State Medicaid program’s official newsletter.


                                                       6
For 7 of the 100 claims in our sample, the ordering practitioner did not note the condition
justifying the order for ambulette services in the beneficiary’s medical record. Further, in
interviews, the ordering practitioner could not indicate the condition justifying the order.

No Medical Practitioner’s Order for Transportation Services

Pursuant to 18 NYCRR § 505.10(d)(4), requests for prior authorization for NEMT services for
which an ambulette will be used to transport the beneficiary must be supported by an order from
the beneficiary’s attending physician, physician’s assistant, nurse practitioner, dentist,
optometrist, podiatrist, or other approved medical practitioner.

For 7 of the 100 claims in our sample, the request for prior authorization was not supported by an
order from an approved medical practitioner. Specifically, for these seven claims, the local
social services district, the transportation provider, or the ordering physician could not provide a
medical practitioner’s order for the related NEMT service.

Driver Not Reported Timely to the Department of Motor Vehicles

Pursuant to 18 NYCRR § 505.10(e)(6)(ii), ambulette services and their drivers must comply with
all the requirements of the Department of Transportation and the Department of Motor Vehicles.
Section 509-d(4) of Article 19-A of the New York Vehicle and Traffic Law requires
transportation providers to notify the Department of Motor Vehicles within 10 days of the date
on which an ambulette driver commences employment. Pursuant to Department of Motor
Vehicles regulations (15 NYCRR §§ 6.3(c)(10) and 6.3(d)), transportation providers must submit
an Article 19-A Bus Driver Application to the Department of Motor Vehicles for each new
driver. The Department of Motor Vehicles uses the information on the application to conduct a
criminal and driving history review of the driver. 12

For 5 of the 100 claims in our sample, NEMT services were provided by ambulette drivers who
had not been reported within 10 days of commencing employment to the Department of Motor
Vehicles by the transportation provider as of the date of the sampled ambulette service. For two
of these claims, as of April 28, 2011, the transportation provider still had not reported the driver
to the Department of Motor Vehicles. 13

POTENTIALLY UNALLOWABLE CLAIMS

We could not determine whether three claims complied with certain Federal and State
requirements because we could not locate the transportation provider or medical practitioner
associated with these claims.



12
  If the Department of Motor Vehicles finds a disqualifying conviction and/or potentially disqualifying traffic
violation, it may determine the driver to be unqualified and, therefore, not eligible to drive an ambulette.
13
  For one of the claims, the driver did not possess a valid commercial driver’s license. For the other claim, the
driver had not completed the State’s driver certification program.


                                                          7
CAUSES OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE CLAIMS

The claims for unallowable and potentially unallowable services were made because (1) DOH’s
policies and procedures for overseeing the Medicaid program did not adequately ensure that
providers complied with Federal and State requirements for ordering, documenting, and claiming
NEMT services and (2) the New York State social services districts’ quality assurance
mechanism did not adequately ensure that NEMT services were properly provided.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $13,473,577 to the Federal Government;

   •   strengthen its policies and procedures to ensure that providers comply with Federal and
       State requirements for ordering, documenting, and claiming NEMT services; and

   •   require the New York State social services districts to strengthen their quality assurance
       mechanism to ensure that NEMT services are properly provided.

DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DOH partially agreed with our first recommendation
(financial disallowance) and agreed with our remaining recommendations. Specifically, DOH
disagreed with our interpretation of certain State requirements related to prior authorization of
NEMT services and with our findings related to 14 sampled claims.

After reviewing DOH’s comments and conducting additional interviews with medical providers,
we revised our findings and modified our statistical estimates accordingly. DOH’s comments
appear in their entirety as Appendix D.

No Medical Practitioner’s Order for Transportation Services

Department of Health Comments

DOH stated that it appeared we disallowed eight claims because we “were unable to locate paper
documentation confirming written practitioners’ orders for the transportation services.” DOH
stated that State regulations on requests for prior authorization (18 NYCRR § 505.10(d)(4)) “do
not specifically require the maintenance of a unique written order to support each request”
[emphasis in original]. DOH stated that it meets this regulatory requirement through safeguards
built into its prior authorization process. Specifically, DOH stated that this process ensures that
only the requests of appropriate medical practitioners are approved because all requests for prior
authorization “must include the medical practitioner’s [identification] number and require the
approval of a prior authorization official ….” DOH further stated that its eMedNY system will




                                                 8
not accept a request for prior authorization without a system-verified medical practitioner’s
identification number.

Office of Inspector General Response

Requests for prior authorization for NEMT services must be supported by a practitioner’s order
(18 NYCRR § 505.10(d)(4)). We did not consider only a practitioner’s written order as
supporting documentation of an order for NEMT services. Rather, we accepted as supporting
documentation a request for prior approval signed by the medical practitioner and/or notes in the
beneficiary’s medical records indicating that a practitioner ordered NEMT services. The MMIS
alone could not confirm that there was a practitioner’s order. Rather, the MMIS could confirm
only that the practitioner’s identification number was valid. Therefore, we did not consider the
mere presence of a medical practitioner’s identification number in the MMIS to be supporting
documentation of a medical practitioner’s order.

For seven of the eight sampled claims, DOH could not provide a request for prior approval
signed by a physician. Further, documentation to support a practitioner’s order could not be
found in records at the transportation provider, the medical practitioner whose identification
number was entered in DOH’s MMIS, or the medical provider to whom the beneficiary was
transported. For one claim (number 88), based on additional information provided by DOH, we
were able to obtain documentation of a practitioner’s order for the NEMT service and have
revised our estimates of unallowable payments accordingly. 14 We maintain that our findings
regarding the seven remaining claims are valid.

Inadequate Documentation

Department of Health Comments

DOH stated that it appeared we disallowed one claim (number 51) because the transportation
provider did not specifically document the number of miles traveled. DOH stated that State
regulations (18 NYCRR § 505(e)(8)) require providers to document the origin and destination of
each trip, not the number of miles traveled. DOH stated that the transportation providers
associated with three other claims (numbers 1, 17, and 56) are no longer in business and that the
claims should be set aside for resolution between DOH and CMS.

Office of Inspector General Response

We did not question claim number 51 because the transportation provider did not document the
number of miles traveled. Rather, we questioned the claim because the transportation provider
did not document the name of the driver who provided the NEMT service. For the three claims
for which the transportation provider was no longer in business (numbers 1, 17, and 56), we
obtained claim information from other sources (e.g., former officials or, if the company was sold,


14
  In another section of its response, DOH noted that the beneficiary associated with claim number 88 visited two
service providers on the same day. Based on this information, we were able to obtain documentation from a service
provider that we had not been informed of by the transportation provider.


                                                        9
current owners). After reviewing DOH’s comments, we maintain that our findings regarding
these four claims are valid.

No Medicaid-Eligible Medical Services

Department of Health Comments

For six sampled claims (numbers 24, 69, 75, 79, 88, and 100), DOH stated that medical services
were provided to the associated Medicaid beneficiary on the date of the NEMT service and
provided specific claim information.

Office of Inspector General Response

Based on DOH’s comments, we interviewed the medical practitioners related to the six sampled
claims. For two claims (numbers 24 and 88), we verified that Medicaid-eligible services were
provided to the beneficiary on the date of the NEMT service, and we have revised our findings
and modified our statistical estimates. For the four remaining claims (numbers 69, 75, 79, and
100), the medical practitioner to whom the beneficiary was allegedly transported could not
document that the beneficiary received Medicaid-eligible services on the date of the NEMT
service. Accordingly, for these four claims, we maintain that our findings are valid.

Condition Justifying Order for Ambulette Services Not Noted in Medical Record

Department of Health Comments

For six sampled claims (numbers 41, 51, 53, 57, 68, and 69), DOH stated that “the need for
ambulette service was self-evident” and did not require justification to be documented.

Office of Inspector General Comments

Pursuant to 18 NYCRR 505.10(c)(4), the ordering practitioner must note in the beneficiary’s
medical record the condition that justifies the practitioner’s ordering ambulette services. Based
on DOH’s comments on three sampled claims (numbers 41, 51, and 53), we obtained
documentation of the condition justifying the practitioner’s order for ambulette services.
However, the three claims contained multiple deficiencies. Therefore, although we revised the
number of deficiencies in this category, we did not modify our statistical estimates. For two
other claims (numbers 57 and 69), the ordering practitioners stated that they did not have a
record of the condition justifying the need for the mode of transportation, and for the remaining
claim (number 68), the practitioner’s orders indicated the need for taxicab or livery service, not
the costlier ambulette service. Therefore, we maintain that our findings in this area are valid.




                                                10
APPENDIXES
               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all Medicaid paid claims for nonemergency medical transportation
(NEMT) services submitted by transportation providers in New York State for the period April 1,
2005, through March 31, 2006.

SAMPLING FRAME

The sampling frame was an Access file containing 2,277,713 Medicaid NEMT claims totaling
$97,489,723 ($48,750,864 Federal share). The claims data was extracted from the New York
State Medicaid Management Information System.

SAMPLE UNIT

The sample unit was an individual claim for an NEMT service submitted by a New York State
provider and for which the New York State Department of Health claimed Federal Medicaid
reimbursement.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

We used the Office of Audit Services’ statistical software, RAT-STATS 2007, to generate the
random numbers for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the claims in the sampling frame. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with the unallowable Medicaid
claims for NEMT services.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                           Sample Details and Results

                                                                          Value of
             Value of                       Value of       Number of     Unallowable
 NEMT         Frame                          Sample       Claims With     Services
Claims in    (Federal           Sample      (Federal      Unallowable     (Federal
 Frame        Share)             Size        Share)         Services       Share)
2,277,713   $48,750,864           100        $2,010            40           $793


                       Estimates of Unallowable Services
            (Limits Calculated for the 90-Percent Confidence Interval)

                                   Total Claims      Federal Share
               Point estimate        $911,085         $18,054,178
                Lower limit           723,237          13,473,577
                Upper limit         1,109,297          22,634,779
                                                                                     Page 1 of 3


    APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

                                         Deficiencies

1    Transportation claim not adequately documented
2    No Medicaid-eligible medical services
3    Condition justifying order for ambulette services not noted in medical record
4    No medical practitioner’s order for transportation services
5    Driver not reported timely to the Department of Motor Vehicles

         Office of Inspector General Review Determinations for Sampled Claims


     Sample     Deficiency Deficiency Deficiency Deficiency Deficiency   No. of
     Claim          1          2          3          4          5      Deficiencies
        1           X          X                                            2
        2                      X          X                                 2
        3                                                                   0
        4                                                                   0
        5                                            X                      1
        6                                                                   0
        7                                                       X           1
        8                                                                   0
        9                                                                   0
       10                                                                   0
       11                                                                   0
       12           X                                                       1
       13                                                                   0
       14                                                                   0
       15                                                                   0
       16                                                                   0
       17           X                                                       1
       18                                                                   0
       19                                                                   0
       20           X                                X                      2
       21                                                                   0
       22           X          X                                            2
       23                                                                   0
       24                                                                   0
       25           X                                                       1
       26                                                                   0
       27                                                                   0
       28                                                                   0
       29                                            X                      1
       30                                                                   0
                                                                  Page 2 of 3


Sample   Deficiency Deficiency Deficiency Deficiency Deficiency   No. of
 Claim       1          2          3          4          5      Deficiencies
  31                                                                 0
  32                                                                 0
  33                                                                 0
  34                                                                 0
  35                                                                 0
  36                                                                 0
  37         X                                                       1
  38                                                                 0
  39         X                                                       1
  40                                                                 0
  41                                          X                      1
  42         X                                                       1
  43         X                                                       1
  44                                                                 0
  45                                                                 0
  46                                                                 0
  47                                                                 0
  48                                                                 0
  49         X                                                       1
  50                                                                 0
  51         X                                                       1
  52                                                     X           1
  53                                          X                      1
  54                                                                 0
  55                                                                 0
  56         X                                                       1
  57                               X                                 1
  58         X          X                                            2
  59                                                                 0
  60                                                     X           1
  61                                                                 0
  62                                                                 0
  63                                                                 0
  64                                                                 0
  65                    X                                            1
  66                                                                 0
  67         X                                                       1
  68                               X          X                      2
  69                    X          X                                 2
  70         X                                                       1
  71                                                                 0
  72                                                                 0
                                                                               Page 3 of 3


        Sample        Deficiency Deficiency Deficiency Deficiency Deficiency   No. of
         Claim            1          2          3          4          5      Deficiencies
           73                                                                     0
           74                                                                     0
           75                        X                                            1
           76                                                                     0
           77                                                                     0
           78             X                                                       1
           79                        X                                X           2
           80                                                                     0
           81                                                                     0
           82                                                                     0
           83                                   X                                 1
           84                                                                     0
           85                                                                     0
           86                                                                     0
           87                                                                     0
           88                                                                     0
           89                                                                     0
           90                        X          X                                 2
           91                                   X                                 1
           92                                                                     0
           93             X                                X                      2
           94                                                         X           1
           95             X                                                       1
           96                                                                     0
           97             X                                                       1
           98             X                                                       1
           99                                                                     0
          100             X          X                                            2
       Category
                           22              10           7   7          5          51 1
        Totals
      40 Claims With Deficiencies




1
    Eleven claims contained more than one deficiency.
                                                                                                          Page l of6


        APPEN DIX D: DEPART MENT O F H EALTH COMMENTS 




~~~~~~~~~r ~~~'~~~fK 1b~~~~~~~~= 

 NorB¥ It Sha~. M.O.• M.P.H.
 ~f                 	
                                      HEALTH 	                                                Sue Kelly
                                                                           £oecul.... DopuIy CommiWonef




                                                    September 16, 201 1


James P. &lert
Regional Inspector General for Audit Services
Department of Health nnd Human Services
Region II
Jacob Javitz Federal Building
26 Federal Plaza
New York, New York 10278

                                                    Ref. No. A-02-09-01024
Dear Mr. &lert:

      Enclosed arc the New York Slate Department of Health's comments on the Department
ofHcalth and Human Services. Office oflnspeclor General's draft audit report A-02·09-01 024
on "Review of Medicaid Payments fo r Nonemergency Medical Transportation Services
Submitted by Providers in New York State."

        Thank you for the opportunity to comment.

                                                    Sincerely,        ,/   d)
                                                    7flql/~
                                                    -Robert W. Reed
                                                    Deputy Commissioner
                                                      for Administration
Enclosure

cc: 	   Jason A. Helgerson
        James C. Cox
        Diane Christensen
        Dennis Wendell
        Stephen Abbott
        Stephen F. laCasse
        Irene Myron
        Ronald Farrell
        Barry Benner
        John Brooks




                                      _ .......

                                      HEALTH.NY.GOV
                                       ~.--­
                                                                                                       Page 2 of6




                 New York State Department of Health's 

                             Comments on the 

               Department of Health and Human Services 

                     ' Office of Inspector General's 

                  Draft Audit Report A-02-09-01024 on 

                    "Review of Mcd,i caid Payments 

      F~r   Noncmcrgcncy Medical Transportation Services Claims 

               Submitted By Providers in New York State" 



The following arc the New York State Department of Health's (Department) comments in
response to the Department of Health and j'/uman Services, Office of Inspector General's (010)
draft audit report A-02-09-01 024 on "Review of Medicaid Payments for Nonemergcncy Medical
Transportation Services Claims Submitted by Providers in New York State."

Recommendation #1:

The Department should refund $ J 4,531,449 to the Federal Government.

Response # 1:

The Department does not entirely agree with the recommendation for it to refund $14,531,449 to
the Fedc~1 government.

The OIG audit sample consisted of 100 randomly selected claims from amongst the 2.277,713
claims reimbursed for audit period. The OIG review found that the Department claimed
unallowable services for 42 of the 100 claims in the audit sample, with 15 of the 42 alleged non­
compliant claims containing more than one deficiency. The Department claimed $842 in federal
reimbursement relative to these 42 claims. which OIG extrapolated aeross the entire claims
universe to conclude thai the Department was reimbursed $14,531,449 in unallowable claims.

OIG identified five areas of non-compliance and documented the specific claims associated with
each. The Department and the New York State Office of the Medicaid Inspector General
(OMIO) reviewed the claims, with the results summarize4 below.

1. [nat/equate DocumentatiQII

   Fo~ 22 claims, 010 found that the transportation provider could not adequately document 

   nonemergency medical transportation (NEMT) services to support the claim. The 

   Department disagrees with this finding for one ofth.e claims (#5 i) as its review of the ca.'!C 

   documentation verified the existence of adequate trip documeniation. It appears OIG 

   disallowed this claim because the transportation provider did not specifically document the 

   number of miles traveled . However, while 18 NYCRR § 505(e)(8) requi~es providers to 

   document the origination and destination of each trip, providers are not required 10 document 

   the m,lmbcr of milc~ traveled. In similar audits, OMIO typically utilizes mapping software to
                                                                                                                ,,,
                                                                                                                i'
                                                                                                             Page 3 of6

__._---­
.



                                                        2
         dctcnnine the distance, then compares this infomJation to the claim and also to the prior
         approval roster maintained by the provider containing the approved mileage. OMIG notes
         that in some cases the trip ticket and/or the driver's log will identify the odometer readings at
         the pick-up and destination points, although it is not required.

         In addition, three other claims (#1 , #17 and #56) are from transportation providers that are no
         longer in business and which could not be located. The Department believes OIG should set
         these three claims aside for resolution between eMS and the Department.

     2. 	 No Mctlicaid.Eligible M ef/ical Ser"ice~'

         For 12 claims, OIG found that the medical practitioner could not provide documentation to
         support that the beneficiary received Medicaid-eligible medical services on the date of
         tranSJX>rt. The Department disputes this finding for 6 of the 12 claims, as its review verified
         that medical services wcre provided on the transJX>i1ation date of service in the following
         instances:

         • 	 Claim #24 - laboratory services were submitted by Jamaica Hospital Medical Center.

         • 	 Claim #69 - adult day health care services were submitted by Episcopal Residential
                         Hcalth Care Facility.

         • 	 Claim #75 - adult dllY helllth care services were submitted by Elan! at Goshen.

         • 	 Claim #79- adult day heal th care services werc submitted by Elan! at Goshen.

         •   Claim #88 - mental health services were .,"I'm;tt"d.~
                        physician services were s~bmitted by

         •   CI~im   #100 - physician services were submitted

     3. 	 Comlitioll Justifyillg Orderfo r Ambulette S ervices Not Noietl ;11 Met/icai Record

        For ,I 0 claims, OIG found that the beneficiary's medical record did not indicate the condition
        justifying the practitioner's order for ambulctte services. The Department disputes this
        finding for 6 of the 10 claims as its review of the ease documcntation dctcrmined that the
        need for ambulette service was self-evident. The Department docs not require justification to
        be documented in the medical record when the need for the mode of transportation utilized
        can be readily inferred by reviewing the medical history or by patient observation.

         • 	 Claims #41 and #53 - the recipients are nursing home residents, and the rccipicnt
             associated with Claim #53 additionally requires the use of a wheelchair. Eligibility for
             nursing home services includes the need for hands-on care and the full-time assistance of
             personal care and medical staff. Information documcnting this level of care is contained
             in the nursing home's medical records. Nursing home staff ordered the ambulettc
             transportation, as this mode of transportation pr.ovided the necessary personal assistance

                       OIT"lce of Ins ilector Ge ner.d Note 'nl C delete-d te).:t has becn redacted
                       because it is crsonall y idcntiliablc infonnati on.
                                                                                                       Page4of6

                               .- ..-   ...
                                          ~.




                                                 3
       required. The Department maintains that the medical records contain documentation
       justifying the need for aml;uletle transportation.

    • 	 Claim #51 - the medical service was provided by a rehabilitation center. Infonnation in
        the audit case record indicates that the rehabilitation center's medical record states the
        recipient has ~erebral palsy, and includes the following note, "[recipient] transitioncd to
        st!lnd from a bench seat with maximum support but refuses to repeat the activity ... patient
        cannot lift head." Rehabilitation fa~ility slafTordered the ambulette transportation, which
        provides the necessary personal assistance required of recipients with this type of
        physical condition. The Department maintains that the medical record contains
        documentation justifying the need for ambulette transportation.

   • 	 Claims #57 and #69 - the recipients participate in an adult day health care program. A
       condition of acceptance into the program requires that the recipient be in need of nursing
       home services but be capable of living in the community with the ongoing support of
       family and the day health care program. Medical records maintained by the adult day
       health care program document the necd for hands-on assistance of personal and medical
       care. Adult day health care program staff ordered the ambulette transportation, which
       provided the necessary personal assistance required. The Department maintains that the
       medical records contain documentation justifying the need for ambulette transportation.

   • 	 Claim #68 - the ense record contains a medical necessity form that justifies the need
       for ambulettc transportation which was supplied by the prior authorization agent,
       ACCESS Transit. As stated in the record, the beneficiary ... .. needs nssistance
       prompting for ADLS [activities of daily living]- nccds door to door assistance-­
       cognitive." Ambulette transportation provides the necessary personal assistance
       recommended on the form. 18 NYCRR § 505(cX2Xiv) provides for ambu lette
       transportation in situations where, "the recipient has a disabling physical condition
       other than .. . or a disabling mental condition, either of which requires the personal
       assistance provided by an ambulette service, and the ordering practitioner certifies, in
       a .manner designated by the department, that the recipient cannot be transported by a
       taxi, livery service, bus or private vehicle lind requires transportation by ambulette
       service." Thc Department maintains that the case record, including the medical
       necessity form justifying the need for ambulette transportation, sufficiently documents
       the claim.

4. No Medical Practitioller's Order jar Trallsportatioll Services

   For 8 ~laims, 0[0 found that the request for prior authorization was not supported by an
   onter from a medical practitioner. According to 0[0. neithcr the local social services
   district, the transportation provider or the ordering physician could provide a medical
   practitioner'S order for the transportation service. The Department does not agree with this
   finding <Jnd believes the 8 claims should be allowed.

   It appears 010 disallowed these claims because the audito rs were unable to locate paper
   documentation confirming written -practitioners' orders fo r the transportation services. 11lc
                                                                                                    Page 5 of 6

                                         ..-.."   ,.



                                                       4
    Department finds this interpretation inconsistent with 18 NYCRR § 505.10(d)(4) whieh
    states, "a request for prior authorization for nonemergeny ambulance transportation must
    be supported by the ord~r of an ordering practitioner who is the MA recipient's attending
    physician, physician's assistant or nurse practitioner." The regulations do not specifically
    require the maintenance of a unique wriuen order to support each request. The regulatory
    requirement is achieved and elcctronieally documented through safeguards built into the
    prior authorization process thaI ensure only the requc-~ts of appropriate medical
    practitioners are approved. All requests must inelude the medical practitioner's ID number
    and require Ihe approvaL of a prior authori7..ation official who is cither a government
    employee or a representative working on behalf of the government. In addition, the
    eMedNY system will not accept an authorization without the medicaL practitioner's ID
    num~r, which is system verified as a valid ordering practitioner.


    Further, transportation providers are not required to maintain documentation from medical
    practitioners verifying that a requcst for a particular modc oftrallsportation was made.
    Confirmation of the need for a particular modc of transportation is between the medical
    practitioner and the prior authorization official, and may include confidential medical
    information that is not to be shared with the transportation provider.

5. Dril'c( Nol Reporlcl/ Timely to lile DeporlmC1I1 of MOlor Vehicles

    For5 claims, 010 found that the transportation provider did not report the name of the
    ambulette driver that provided the NEMT service to the Department of Motor Vehicles
    (DMV) wi thin 10 days of commencement of employment. The Department does not
    dispute this finding.

Rccomm cndlltion #2:

The Department should strengthen its policies and procedures to ensure that providcrs comply
with Federal and State requirements for ordering, documenting and claiming NEMT services.

Response #2:

The Department agrees with this OIG recommendation and has already updated the
Transportation Manual and posted it online (www.emedny.org) liS of July 15,2011. The
Department will additionally include guidance for providers of nonemergency transportation
serllices in an upcoming edition of it Medicaid Update monthly provider publiclltion, reinforcing
the policies and procedures published in January 2011.

Recommendation #3:

The Departmcnt should rcquire the New York State social services districts to strengthen their
quality assurance mechanism to ensure thut nonemcrgcncy transportation services are properly
provided.
                                                                                                      Page 6 of6




                                                 5
Response #3:

The Department agrees with this 010 recommendation and has already initiated the process of
contracting with a transportation manager to implement a quality assurance program for NEMT
services provided in New York Stale. Additionally. the Department provides infonnation and
updates to all prior authorization officials, in an effort to increase quality and ensure adherence
with program requirements. The Department will re-issue instructions on ordering the correct
mode of transportation, and reinforce the importance of documenting services ordered.
